Case: 20-4142

Document: 7-1

Filed: 03/29/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: March 29, 2021
Mr. John Patrick Parker
Law Offices
988 E. 185th Street
Cleveland, OH 44119
Ms. Mary Anne Reese
Office of the Attorney General
of Ohio
441 Vine Street
Suite 1600
Cincinnati, OH 45202
Re: Case No. 20-4142, Gracshawn Thomas v. Ed Sheldon
Originating Case No. : 5:17-cv-01769
Dear Sir or Madam,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/C. Anthony Milton
Case Manager
Direct Dial No. 513-564-7026
cc: Ms. Sandy Opacich
Enclosure
No mandate to issue

(1 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 1

No. 20-4142

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

GRACSHAWN THOMAS,
Petitioner-Appellant,
v.
ED SHELDON, Warden,
Respondent-Appellee.

(2 of 11)

)
)
)
)
)
)
)
)
)

Mar 29, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: GRIFFIN, Circuit Judge.

Gracshawn Thomas, an Ohio prisoner proceeding through counsel, appeals the district
court’s judgment denying his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254.
Thomas has filed an application for a certificate of appealability (“COA”). See Fed. R. App.
P. 22(b)(1).
In June 2014, an Ohio jury convicted Thomas of aggravated murder with two firearm
specifications, murder with two firearm specifications, having weapons while under disability, and
tampering with evidence. Those convictions stemmed from a drive-by shooting that occurred on
the morning of September 18, 2013, in Akron, Ohio, which resulted in the death of Alphonzo
Golden. The trial court sentenced Thomas to an aggregate term of thirty-five years to life in prison.
Thomas’s trial counsel filed a timely notice of appeal and the trial court thereafter
appointed an attorney to represent Thomas on appeal. But Thomas’s family had evidently already
retained Attorney Gary Levine for that very purpose. According to Thomas, his family hired
Levine in April 2014 to represent him on appeal. Thomas alleged that Levine spoke with him
approximately ten times by telephone and visited him once in prison. During one of their
conversations, Levine allegedly promised Thomas that he would file an appellate brief. However,
Thomas’s appellate brief was instead filed by appointed counsel on December 1, 2014—three days

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 2

No. 20-4142
-2before Levine filed an entry of appearance on Thomas’s behalf. On January 23, 2015, the Ohio
Court of Appeals permitted appointed counsel to withdraw as counsel of record in light of Levine’s
entry of appearance. That same day, Levine filed a motion to strike appointed counsel’s brief,
which the Ohio Court of Appeals summarily denied. As a result, Levine did not file any brief in
the Ohio Court of Appeals on Thomas’s behalf. The Ohio Court of Appeals ultimately affirmed
Thomas’s convictions after rejecting the following three claims that appointed counsel had
advanced in his brief: (1) the trial court incorrectly allowed Golden’s girlfriend to give testimony
that violated the rules on hearsay and Thomas’s rights under the Sixth Amendment’s Confrontation
Clause; (2) Thomas’s convictions were supported by insufficient evidence; and (3) Thomas’s
convictions were against the manifest weight of the evidence. State v. Thomas, No. 27405, 2015
WL 3765579, at *5 (Ohio Ct. App. June 17, 2015).
According to Thomas, neither Levine nor appointed counsel timely advised him that the
Ohio Court of Appeals had issued its decision in his appeal, which caused him to miss the deadline
to file a timely appeal to the Ohio Supreme Court. Thomas alleged that Levine repeatedly assured
him that he would file an application to reopen the appeal pursuant to Rule 26(B) of the Ohio Rules
of Appellate Procedure, but never followed through. Therefore, on September 16, 2015, Thomas
filed a pro se Rule 26(B) application, in which he argued that appellate counsel had rendered
ineffective assistance by not raising seven specific claims on direct appeal. The State moved to
dismiss the Rule 26(B) application as untimely, arguing that Thomas had missed the ninety-day
filing deadline by one day and that he had not shown “good cause” for the late filing. See Ohio
App. R. 26(B)(1), (B)(2)(b). Levine filed a reply on Thomas’s behalf, arguing that the Ohio Court
of Appeals’ refusal to allow him to strike appointed counsel’s purportedly deficient brief and
replace it with his own brief constituted “good cause” to overlook Thomas’s untimely filing.
Thomas also filed a pro se reply, in which he claimed that he “did his best” to present his arguments
“in a timely fashion” and asked for leniency. The Ohio Court of Appeals declined to consider
Thomas’s explanations for missing the filing deadline and denied his Rule 26(B) application as
untimely.

(3 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 3

No. 20-4142
-3Levine then moved the Ohio Court of Appeals to reconsider its denial of Thomas’s
Rule 26(B) application, but to no avail. Thomas, acting pro se, subsequently appealed the Ohio
Court of Appeals’ denial of his Rule 26(B) application and Levine’s reconsideration motion, but
the Ohio Supreme Court declined to accept jurisdiction. State v. Thomas, 57 N.E.3d 1171 (Ohio
2016) (table). On August 10, 2016, Thomas, again acting pro se, moved the Ohio Supreme Court
for leave to file a delayed appeal from the Ohio Court of Appeals’ June 17, 2015, decision, which
the Ohio Supreme Court denied. State v. Thomas, 60 N.E.3d 6 (Ohio 2016) (table).
Over a year later, on August 23, 2017, Thomas, through newly retained counsel John P.
Parker, filed a second Rule 26(B) application, in which he argued that appointed and retained
appellate counsel had both rendered ineffective assistance by not raising seven specific claims on
direct appeal. The Ohio Court of Appeals denied Thomas’s second Rule 26(B) application as
impermissibly successive. It also determined that Thomas’s proffered ineffective-assistance-ofappellate-counsel claims were barred by the doctrine of res judicata. Thomas appealed, but the
Ohio Supreme Court declined to accept jurisdiction. State v. Thomas, 91 N.E.3d 758 (Ohio 2018)
(table).
In August 2017, Thomas, through Attorney Parker, filed a § 2254 petition, in which he
reasserted all seven of the ineffective-assistance-of-appellate-counsel claims that he had advanced
in his second Rule 26(B) application (Claim One). He also argued that: the trial court had
incorrectly permitted Golden’s girlfriend to give testimony that violated his Sixth Amendment
right of confrontation (Claim Two); his aggravated-murder conviction was supported by
insufficient evidence (Claim Three); appellate counsel had rendered ineffective assistance by not
timely advising him of the Ohio Court of Appeals’ June 17, 2015, decision (Claim Four); and he
is actually innocent (Claim Five). The respondent moved the district court to dismiss Thomas’s
habeas petition on the basis that it was barred by the one-year statute of limitations set forth in
28 U.S.C. § 2244(d). In response, Thomas argued that he was entitled to equitable tolling of the
limitations period based on his appellate attorneys’ ineffectiveness and that failing to review the
merits of his claims would result in a fundamental miscarriage of justice because he is actually

(4 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 4

No. 20-4142
-4innocent. Finding Thomas’s equitable-tolling argument well-taken, the district court denied the
respondent’s motion to dismiss and referred the matter back to the magistrate judge for
consideration of Thomas’s claims and any applicable procedural defenses.
Respondent thereafter filed a return of writ, and Thomas filed a traverse. The magistrate
judge recommended that the district court dismiss in part and deny in part Thomas’s habeas
petition after determining that his claims were either procedurally defaulted or meritless. Over
Thomas’s objections, the district court judge adopted the magistrate judge’s report and
recommendation, denied Thomas’s habeas petition without a hearing, and declined to issue a COA.
Thomas now seeks a COA from this court as to each of his claims. A COA may be issued
“only if the applicant has made a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). In order to be entitled to
a COA, the movant must demonstrate “that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude that the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327. When the
district court “denies a habeas petition on procedural grounds without reaching the prisoner’s
underlying constitutional claim,” the petitioner can satisfy § 2253(c)(2) by establishing that “jurists
of reason would find it debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Claim One. Thomas argued that appointed and retained appellate counsel both rendered
ineffective assistance by not raising the following claims on direct appeal: (a) trial counsel was
ineffective for misunderstanding the State’s cell phone records, putting forth an alibi defense based
on its misunderstanding of those cell phone records, and not conducting a proper investigation;
(b) trial counsel was ineffective for neither cross-examining witnesses nor requesting a jury
instruction on “confirmation bias”; (c) either the prosecutor committed misconduct or trial counsel
rendered ineffective assistance by portraying Golden in a false light to the jury and withholding
evidence of third-party guilt; (d) his trial should have been severed from that of his co-defendant;
(e) appellate counsel were ineffective for not informing him of the deadline for filing a petition for

(5 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 5

No. 20-4142
-5post-conviction relief under Ohio Revised Code § 2953.21; (f) trial counsel was ineffective for not
objecting to certain testimony from Golden’s girlfriend that violated his Sixth Amendment right
of confrontation; and (g) the cumulative effect of the aforementioned errors denied him a fair trial.
The district court concluded that Thomas had procedurally defaulted all subclaims
contained in Claim One. In analyzing whether a habeas petitioner procedurally defaulted a federal
claim in state court, a federal court must consider whether: “(1) the petitioner failed to comply
with a state procedural rule; (2) the state courts enforced the rule; [and] (3) the state procedural rule
is an adequate and independent state ground for denying review of a federal constitutional claim.”
Jalowiec v. Bradshaw, 657 F.3d 293, 302 (6th Cir. 2011) (citing Guilmette v. Howes, 624 F.3d
286, 290 (6th Cir. 2010)).
It is undisputed that Thomas first raised subclaims (a), (b), (c), (d), (e), and (g) in his second
Rule 26(B) application, which the Ohio Court of Appeals dismissed as successive and barred by
res judicata. It is well-settled that Ohio does not permit “second or successive applications for
reopening” under Rule 26(B), State v. Williams, 790 N.E.2d 299, 301 (Ohio 2003) (per curiam);
see also State v. Twyford, 833 N.E.2d 289, 290 (Ohio 2005) (per curiam), and the Ohio Court of
Appeals explicitly enforced that procedural rule when denying Thomas’s second Rule 26(B)
application. In light of that rigid procedural rule, Thomas “has no basis to argue that a second
Rule 26(B) application is available to address the errors of the attorney who represented him on
the first Rule 26(B) application.” Smith v. Warden, Toledo Corr. Inst., 780 F. App’x 208, 223 (6th
Cir. 2019). Moreover, Ohio’s rule barring successive Rule 26(B) applications and Ohio’s resjudicata doctrine are both adequate and independent state rules for procedural-default purposes.
See id.; see also Fautenberry v. Mitchell, 515 F.3d 614, 633 (6th Cir. 2008). Reasonable jurists
could not debate the district court’s determination that Thomas procedurally defaulted the abovementioned subclaims.
A petitioner can overcome a procedural default by showing cause for the default and
prejudice arising therefrom. Coleman v. Thompson, 501 U.S. 722, 750 (1991). Thomas cited
Attorney Levine’s ineffectiveness as cause for his procedural default. However, because Thomas

(6 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 6

No. 20-4142
-6did not have the right to assistance of counsel in his Rule 26(B) proceeding, post-conviction
counsel’s deficient performance cannot establish cause to excuse his default. See Carter v.
Mitchell, 693 F.3d 555, 565 (6th Cir. 2012). Thomas argues that the Supreme Court’s decision in
Martinez v. Ryan, 566 U.S. 1 (2012), permits him to raise the ineffectiveness of post-conviction
counsel as cause to excuse his default. But Martinez “does not extend to attorney errors in any
proceeding beyond the first occasion the State allows a prisoner to raise a claim of ineffective
assistance at trial,” id. at 16, and this court and the Supreme Court have both rejected efforts to
expand Martinez’s holding to include claims of ineffective assistance of appellate counsel. See
Davila v. Davis, 137 S. Ct. 2058 (2017); see also Hodges v. Colson, 727 F.3d 517, 531 (6th Cir.
2013). “Thus, even if [Thomas’s] first Rule 26(B) counsel was ineffective, this cannot provide
cause to excuse the default of the [ineffective-assistance-of-appellate-counsel] claims in his second
Rule 26(B) application.” Smith, 780 F. App’x at 225.
Thomas also argued that Levine abandoned him. See Maples v. Thomas, 565 U.S. 266,
289 (2012) (holding that a petitioner had shown cause to excuse his procedural default after his
attorneys abandoned him without warning and caused him to miss the deadline to file a postconviction appeal).

Assuming without deciding that Levine’s conduct did constitute

“abandonment” under Maples, that would only serve as cause to excuse the default of the
ineffective-assistance-of-appellate-counsel-claims that were raised in Thomas’s initial Rule 26(B)
application. Thus, even if Levine did abandon Thomas, that would not serve as cause to excuse
the default of subclaims (a), (b), (c), (d), (e), and (g) because, as previously noted, Thomas raised
those subclaims for the first time in his second Rule 26(B) application. Although Thomas asserts
that his initial Rule 26(B) application was a “nullity” and that his second Rule 26(B) application
was therefore not successive, he cites no authority in support of that proposition.
A petitioner can also overcome a procedural default by showing that failing to review his
claims would result in a fundamental miscarriage of justice. Coleman, 501 U.S. at 750. A
fundamental miscarriage of justice requires a showing of actual innocence. See Dretke v. Haley,
541 U.S. 386, 393 (2004). “[P]risoners asserting [actual] innocence as a gateway to defaulted

(7 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 7

No. 20-4142
-7claims must establish that, in light of new evidence, ‘it is more likely than not that no reasonable
juror would have found petitioner guilty beyond a reasonable doubt.’” House v. Bell, 547 U.S.
518, 536-37 (2006) (quoting Schlup v. Delo, 513 U.S. 298, 327 (1995)). Reasonable jurists could
not debate the district court’s conclusion that Thomas failed to meet this standard. Thomas pointed
to three police reports that were not presented at his trial that show that Golden feared for his life
in the months leading up to his death and that several people other than Thomas had a motive to
harm Golden. Those reports, however, contain no evidence indicating that Thomas was not the
person who murdered Golden. Thus, as discussed in greater detail below, a reasonable juror could
still find Thomas guilty based on the circumstantial evidence that was presented at trial
notwithstanding the police records.
Finally, the magistrate judge determined that subclaim (f), which Thomas first raised in his
initial Rule 26(B) application, was also procedurally defaulted given the Ohio Court of Appeals’
denial of the Rule 26(B) application on timeliness grounds. The magistrate judge concluded that,
while Levine’s ineffectiveness may have caused Thomas to default this claim, Thomas could not
establish prejudice arising therefrom because his underlying claim was meritless. See Coleman,
501 U.S. at 750. Thomas did not object to the magistrate judge’s resolution of this subclaim. The
district court therefore did not review subclaim (f) and adopted the magistrate judge’s
recommendation that it be dismissed. By not filing an objection to subclaim (f), Thomas has
forfeited appellate review of that subclaim. See Miller v. Currie, 50 F.3d 373, 380 (6th Cir. 1995);
see also Thomas v. Arn, 474 U.S. 140, 142 (1985). While exceptional circumstances may warrant
departure from the forfeiture rule in the interests of justice, see Thomas, 474 U.S. at 155; Keeling
v. Warden, Lebanon Corr. Inst., 673 F.3d 452, 458 (6th Cir. 2012), none is present in this case.
Claim Two. Thomas argued that the trial court violated his Sixth Amendment right of
confrontation by permitting Golden’s girlfriend to testify regarding statements that Golden had
made to her prior to his death. The district court determined that Thomas had procedurally
defaulted this claim. Reasonable jurists could not debate that determination. Although Thomas
raised this claim on direct appeal, he did not object to the witness’s testimony at trial. See Thomas,

(8 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 8

No. 20-4142
-82015 WL 3765579, at *2. The Ohio Court of Appeals therefore determined that Thomas had
forfeited all but plain-error review of this claim.1 Id. “[P]lain error review by an appellate court
constitutes enforcement of Ohio’s contemporaneous objection rule.” Williams v. Bagley, 380 F.3d
932, 968 (6th Cir. 2004). Ohio’s contemporaneous objection rule is an adequate and independent
state ground for barring habeas relief and a state appellate court’s decision to review a claim for
plain error does not waive a procedural default. See Goodwin v. Johnson, 632 F.3d 301, 315 (6th
Cir. 2011).
Claim Three. Thomas argued that his aggravated-murder conviction was supported by
insufficient evidence. In reviewing the sufficiency of the evidence, “the relevant question is
whether, after viewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979). “Circumstantial evidence alone is sufficient to
sustain a conviction and such evidence need not remove every reasonable hypothesis except that
of guilt.” United States v. Lowe, 795 F.3d 519, 522-23 (6th Cir. 2015) (quoting United States v.
Algee, 599 F.3d 506, 512 (6th Cir. 2010)). Federal habeas courts may not “reweigh the evidence,
re-evaluate the credibility of witnesses, or substitute our judgment for that of the jury.” Brown v.
Konteh, 567 F.3d 191, 205 (6th Cir. 2009).
The jury convicted Thomas of aggravated murder under Ohio Revised Code § 2903.01(A),
which provides that “[n]o person shall purposely, and with prior calculation and design, cause the
death of another.” In denying this claim on direct appeal, the Ohio Court of Appeals found that
the State had presented sufficient evidence showing that Thomas was the individual who shot and
killed Golden. Thomas, 2015 WL 3765579, at *3. Specifically, the State presented circumstantial
evidence that, at the time of the shooting, Thomas was driving the same make, model, and color
vehicle as Golden’s killer (a tan Buick Rendezvous), was in the same part of the city, and was
wearing a similarly colored sweatshirt as the individual who was seen shooting Golden. The State
1

The Ohio Court of Appeals, however, declined to address whether the trial court had
committed plain error by allowing the disputed testimony because Thomas did not make a plainerror argument in his appellate brief. Id.

(9 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 9

No. 20-4142
-9also presented evidence that, immediately following the shooting, Thomas’s cell phone made
several calls to a cell phone belonging to his cousin Delrico. Shortly thereafter, footage from a
security camera showed that Thomas had parked the Rendezvous behind a house and began
cleaning out the interior of the vehicle. According to a detective, the type of gun that was used to
kill Golden would have ejected shell casings into the shooter’s vehicle. As Thomas cleaned the
Rendezvous, Delrico arrived to help him.
The Ohio Court of Appeals also concluded that the evidence adduced at trial supported the
jury’s finding that Thomas acted with prior calculation and design. Id. Golden’s girlfriend
testified that Thomas’s cousin, Reggie Woodall, had been killed at Golden’s birthday party
approximately nine months before Golden’s murder. Golden’s girlfriend testified that, after
Woodall’s death, Golden feared for his safety, so much so that he began driving a pickup truck
because it was high up and he could see in the mirrors if anyone was following or approaching
him. On the morning of the shooting, however, Golden was driving a station wagon because his
truck would not start. The Ohio Court of Appeals reasoned that “the fact that Mr. Golden was shot
that morning suggests that the shooter had been waiting for an opportunity to kill Mr. Golden.”
Id. Considering the foregoing, the district court concluded that the Ohio Court of Appeals did not
unreasonably apply the Jackson standard in rejecting Thomas’s sufficiency-of-the-evidence claim.
Reasonable jurists could not debate the district court’s denial of this claim.
Claim Four. Thomas argued that appointed and retained appellate counsel had rendered
ineffective assistance by failing to timely advise him that the Ohio Court of Appeals had issued its
decision in his direct appeal, which caused him to miss the deadline to file a timely appeal to the
Ohio Supreme Court. To establish a claim of ineffective assistance of counsel, the defendant must
show both deficient performance and prejudice. Strickland v. Washington, 466 U.S. 668, 687
(1984); see also Shaneberger v. Jones, 615 F.3d 448, 452 (6th Cir. 2010). The test for prejudice
is whether “there is a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Strickland, 466 U.S. at 694.

(10 of 11)

Case: 20-4142

Document: 7-2

Filed: 03/29/2021

Page: 10

No. 20-4142
- 10 Thomas has not made a substantial showing that he was prejudiced by appellate counsel’s
failure to timely advise him of the Ohio Court of Appeals’ June 17, 2015, decision. This is because
he has not shown a reasonable probability that, but for his appellate counsel’s allegedly deficient
performance, the Ohio Supreme Court would have accepted jurisdiction over his appeal and
granted him relief on any of the claims that he advanced on direct appeal. See id. This claim is
not “adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327
Claim Five. Thomas argued that he is actually innocent of his crimes of conviction. But
any freestanding claim of actual innocence in a non-capital case does not provide a basis for federal
habeas relief. See Hodgson v. Warren, 622 F.3d 591, 601 (6th Cir. 2010). “[A] claim of ‘actual
innocence’ is . . . instead a gateway through which a habeas petitioner must pass to have his
otherwise barred constitutional claim considered on the merits.” Id. (quoting Herrera v. Collins,
506 U.S. 390, 404 (1993)). As previously discussed, reasonable jurists could not debate the district
court’s conclusion that Thomas had failed to demonstrate his actual innocence so as to excuse his
procedural default.
Lastly, to the extent that Thomas argues that the district court should have held a hearing
on his habeas petition, an evidentiary hearing was not necessary in this case because “the record
refutes [Thomas’s] factual allegations or otherwise precludes habeas relief” for the reasons
discussed herein. See Schriro v. Landrigan, 550 U.S. 465, 474 (2007).
Thomas has failed to make a substantial showing of the denial of a constitutional right.
Accordingly, his COA application is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(11 of 11)

